      Department of Homeland Security




         Department of Homeland Security’s 

       Compliance with the Improper Payments 

        Elimination and Recovery Act of 2010 





OIG-12-48                                        March 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the Department’s process to
estimate and report improper payments as well as its efforts to reduce and recover
improper payments. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................6


     DHS’ Compliance with IPERA .....................................................................................6 


     DHS’ Controls over Improper Payment Testing and Reporting ....................................6 

     Recommendations..........................................................................................................9 


     DHS’ Efforts to Recover Improper Payments .............................................................10 

     Recommendations........................................................................................................12 

     Management Comments and OIG Analysis ................................................................12 


Appendices
     Appendix A:           Purpose, Scope and Methodology........................................................16 

     Appendix B:           Management Comments to the Draft Report .......................................18 

     Appendix C:           Major Contributors to this Report........................................................22 

     Appendix D:           Report Distribution ..............................................................................23 


Abbreviations
     AFR                         Annual Financial Report
     CBP                         U.S. Customs and Border Protection
     DHS                         Department of Homeland Security
     DNDO                        Domestic Nuclear Detection Office
     FEMA                        Federal Emergency Management Agency
     FY                          fiscal year
     GAO                         Government Accountability Office
     ICE                         U.S. Immigration and Customs Enforcement
     ICRM                        Internal Control and Risk Management
     IPERA                       Improper Payments Elimination and Recovery Act of 2010

     IPIA                        Improper Payment Information Act of 2002 

     KPMG                        KPMG LLP
     MAPS                        mission action plans
     NPPD                        National Protection & Programs Directorate
     OCFO                        Office of the Chief Financial Officer
     OIG                         Office of Inspector General
     OMB                         Office of Management and Budget
     USCG                        U.S. Coast Guard
     USSS                        U.S. Secret Service
     S&T                         Science and Technology Directorate
     TSA                         Transportation Security Administration
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                         Federal government agencies reported an estimated $125 billion in
                         improper payments in fiscal year 2010. Congress passed the
                         Improper Payments Elimination and Recovery Act of 2010 in an
                         effort to reduce these erroneous payments. The Act requires each
                         agency’s Inspector General to annually determine if the agency is
                         in compliance with the Act.

                         Our audit objectives were to 1) determine if the Department of
                         Homeland Security is in compliance with the Act; 2) evaluate the
                         accuracy and completeness of the Department’s improper payment
                         reporting; and 3) evaluate the Department’s efforts in reducing and
                         recovering improper payments for fiscal year 2011.

                         We contracted with KPMG LLP to determine whether the
                         Department of Homeland Security complied with the Act.
                         KPMG LLP did not find any instances of noncompliance with the
                         Act.

                         We reviewed the accuracy and completeness of the Department’s
                         improper payment reporting and its efforts to reduce and recover
                         improper payments. The Department needs to 1) improve controls
                         to ensure completeness and accuracy of reporting and 2) increase
                         efforts to recover improper payments. Specifically, the
                         Department should ensure that all payments subject to testing are
                         tested and reported and that recovery audit rates are reported
                         accurately. Independent parties should perform test work and
                         review sample payments. Also, the Department should develop
                         guidance on applying results of test work using alternative
                         sampling methodologies. Finally, the Department should perform
                         recovery audits when cost effective, and those audits should target
                         payments with a higher potential for overpayment and recovery.

                         We made six recommendations that if implemented would improve
                         the accuracy and completeness of the Department’s improper
                         payment reporting and improve its efforts to recover any
                         overpayments. DHS concurred with all six of our
                         recommendations.



Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 1
Background
                             The federal government’s efforts to reduce improper payments
                             predate the Department of Homeland Security (DHS). In 2002, the
                             Government Accountability Office (GAO) reported, based on
                             estimates voluntarily provided by some agencies, that the federal
                             government made approximately $20 billion in improper payments
                             annually for fiscal years (FYs) 1999, 2000, and 2001. GAO
                             believed the actual figure could be much higher because no
                             authority required agencies to comprehensively measure, report,
                             and reduce improper payments, and few agencies had publicly
                             reported improper payment information.

                             In response, Congress passed the Improper Payments Information
                             Act of 2002 (IPIA). IPIA required the head of each agency to
                             annually review all their programs and activities, identify the
                             programs susceptible to significant improper payments, and report
                             estimated improper payments for programs identified as
                             susceptible. For programs with estimated improper payments
                             exceeding $10 million, IPIA required agencies to report the causes
                             of the improper payments, actions taken to correct the causes, and
                             the results of the actions taken.

                             On July 22, 2010, the President signed the Improper Payments
                             Elimination and Recovery Act (IPERA or the Act). IPERA
                             amended IPIA by expanding requirements for identifying,
                             estimating, and reporting on programs susceptible to significant
                             improper payments. The term improper payment:

                             A.	 means any payment that should not have been made or was
                                 made in an incorrect amount (including overpayments and
                                 underpayments) under statutory, contractual, administrative,
                                 or other legally applicable requirements; and
                             B.	 includes any payment to an ineligible recipient, any payment
                                 for an ineligible good or service, any duplicate payment, any
                                 payment for a good or service not received (except where such
                                 payment is authorized by law), and any payment that does not
                                 account for credit for applicable discounts.1

                             Improper payments in a program or activity become “significant”
                             if, in the preceding fiscal year, improper payments exceeded: (a)
                             $10 million and 2.5 percent of total program outlays or (b) $100


1
    Pub. L. 111-204, Section 2.(e).


Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 2
                             million regardless of the improper payment percentage of total
                             program outlays.2

                             IPERA requires agencies to perform risk assessments on all
                             programs and activities. Agencies must then test programs and
                             activities susceptible to significant improper payments, and
                             annually report the estimated improper payments made, the actions
                             taken to reduce improper payments, and efforts to recover
                             overpayments. 3

                             In FY 2011, DHS reported an improper payment estimate of $210
                             million from 14 programs across six Components:

                                                   Table 1: DHS’ FY 2011 Estimated 

                                                 Improper Payment Amounts and Rates 


                                                                              Estimated
                                                               Payment                      Improper
                       DHS Component              Programs                    Improper
                                                              Population                    Payment
                                                   Tested                     Payments
                                                              ($ millions)                  Rate (%)*
                                                                             ($ millions)
                       U.S. Customs and
                                                      2            $1,449             $3         0.21%
                       Border Protection
                       Federal
                       Emergency
                                                      8            $3,720            $68         1.83%
                       Management
                       Agency
                       U.S. Immigration
                       and Customs                    1            $1,332           $108         8.12%
                       Enforcement
                       National
                       Protection and
                                                      1              $811            $27         3.27%
                       Programs
                       Directorate
                       Transportation
                       Security                       1            $2,458             $0         0.01%
                       Administration
                       U.S. Coast Guard               1            $2,918             $4         0.13%
                       DHS-wide                      14           $12,688           $210         1.66%
                             Source: DHS-OIG analysis using data from DHS FY 2011 Annual Financial
                             Report (AFR). DHS calculated its FY 2011 estimated improper payment rates
                             using FY 2010 payment data. *Improper payment percentages are weighted
                             averages where multiple programs were reported.




2
    Pub. L. 111-204, Section 2.(a).
3
    Pub.L.111-204, Section 2.(a), (b),and (d).


Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                     Page 3
                         We reviewed the processes and procedures for DHS and the
                         following DHS Components:
                              U.S. Coast Guard (USCG);
                              U.S. Customs and Border Protection (CBP);
                              Federal Emergency Management Agency (FEMA);
                              U.S. Immigration and Customs Enforcement (ICE);
                              National Protection and Programs Directorate (NPPD);
                              Science and Technology Directorate (S&T); and
                              Transportation Security Administration (TSA).

                         In November 2010, the DHS Internal Control Program
                         Management Office issued version 1.0 of its Improper Payments
                         Reduction Guidebook. This Guidebook provides DHS
                         Components with instructions for complying with IPERA,
                         Executive Order 13520, and Office of Management and Budget
                         (OMB) guidance for the implementation of IPERA. DHS intends
                         the Guidebook to be a living document, and it released the latest
                         version, 1.2, in May 2011.

                         The diagram below shows the process DHS Components are
                         required to follow to identify, estimate, report, and recover
                         improper payments:




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 4
Source: DHS-OIG illustration of processes based on information in DHS Improper Payments Reduction
Guidebook, Office of Chief Financial Officer (OCFO) Internal Control Program Management Office.

                         IPERA also requires agencies’ Inspectors General to determine and
                         report annually on whether the agency is in compliance with
                         IPERA. This report meets that requirement.




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 5
Results of Audit
        To comply with IPERA, an agency is required to conduct risk assessments and
        report and publish the results of selected program testing in its Annual Financial
        Report. The agency must also report improper payment rates of less than 10
        percent for each program. KPMG LLP (KPMG) did not find any instances of
        noncompliance with IPERA.

        Additionally, we reviewed the processes and procedures by which DHS estimates
        its annual improper payment rates. Based on our review, we determined that
        DHS needs to 1) improve controls to ensure completeness and accuracy of
        reporting and 2) increase efforts to recover improper payments.

        DHS’ Compliance with IPERA
                We contracted with KPMG to determine whether DHS complied with
                IPERA in FY 2011. KPMG conducted audit procedures to determine if
                DHS met the following requirements prescribed in the Act:
                        conducted required program-specific risk assessments;
                        published improper payment estimates for high-risk programs;
                        published programmatic corrective action plans;
                        published, and has met, annual reduction targets for programs at
                        risk;
                        achieved and reported a gross improper payment rate of less than
                        10 percent for all programs tested; and
                        reported on its efforts to recover improper payments.

                KPMG did not find any instances of noncompliance with the Act.

        DHS’ Controls over Improper Payment Testing and Reporting
                DHS needs to improve its controls over improper payment testing and
                reporting. Specifically, DHS needs to improve its review process to
                ensure that all payments are included, subject to testing, and reported.
                Further, DHS needs to improve its policies and procedures and adequately
                segregate duties.

                         Payments Excluded from Testing and Reporting

                         For each high-risk program, the DHS Guidebook requires that
                         Components provide DHS OCFO with the list of payments made
                         during the fiscal year. DHS’ Internal Control and Risk
                         Management Office (ICRM) then selects a statistically valid
                         sample of the payments and reviews the related files for improper


Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 6
                         payments. CBP mistook some payments from its Security Border
                         Fencing Program as adjustments, and excluded them from the list
                         of payments provided to DHS OCFO.

                         OMB Circular A-123, Management’s Responsibility for Internal
                         Control, requires management to develop and maintain effective
                         internal controls over financial reporting. DHS did not detect the
                         exclusion of payments during its review process and before it
                         published its FY 2011 AFR. As a result, the total amount of
                         payments subjected to selection for testing and the amount
                         reported for this program in the FY 2011 AFR are understated by
                         approximately $85 million.

                         Subsequent to DHS publishing its FY 2011 AFR, CBP tested the
                         excluded payments and identified four payments totaling $16,514,
                         which should have been reported as improper payments.

                         Inaccurate Payment Recovery Audit Reporting

                         DHS inaccurately reported the amount subject to review and the
                         actual amount reviewed in its payment recovery audit reporting in
                         its FY 2011 AFR. Specifically, DHS included Federal Protective
                         Services’ payments, totaling $813 million, under ICE rather than
                         NPPD. As discussed above, OMB Circular A-123, Management’s
                         Responsibility for Internal Control, requires management to
                         develop and maintain effective internal controls over financial
                         reporting. DHS did not effectively perform its review function to
                         detect and correct the error. Including inaccurate data in the AFR
                         could mislead users of that data.

                         Independence

                         Components are required to perform testing of a sample of
                         payments to determine whether payments are improper. The DHS
                         ICRM is responsible for ensuring the Department’s and
                         Components’ compliance with IPERA. The ICRM provides
                         guidance and is responsible for approving Component test plans
                         and other IPERA-related activities. As part of its oversight of the
                         process, ICRM personnel are also responsible for reviewing a
                         sample of payments tested by Components in order to ensure that
                         their test results are reliable.

                         The Director of Internal Controls and the Program Analyst in the
                         ICRM have performance goals of retesting IPERA test work
                         conducted by Components. These personnel also have a


Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 7
                          conflicting performance goal of reducing improper payments.
                          Similar conflicts exist at CBP and FEMA. OMB Circular A-123
                          provides that control activities include policies, procedures, and
                          mechanisms in place to ensure that agencies meet their objectives.
                          This includes proper segregation of duties. Segregating the duties
                          designed to 1) reduce improper payments and 2) test payments
                          files for improper payments will promote independence and reduce
                          the risk of inaccurate or incomplete improper payment data.

                          Improve DHS Guidance

                          DHS’ Improper Payments Reduction Guidebook provides guidance
                          to Components for IPERA-related activities, including assessing
                          risk, testing for improper payments, and reducing and recapturing
                          improper payments. OMB Circular A-123 provides that control
                          activities include policies and procedures to ensure that agency
                          objectives are met. Based on our review, the guidance needs to
                          clarify how to apply the results when a Component uses an
                          alternate testing methodology.

                          Alternate Sampling Methodology

                          The prescribed OMB sampling methodology presumes that all
                          program payments will be subject to selection for testing for
                          improper payments. Exceptions from prescribed OMB sampling
                          methodology are permitted, but the guidance does not differentiate
                          how the results from such sampling should be applied.
                          Consequently, high-risk programs may not be tested in the future
                          and corrective actions may not be monitored.

                          FEMA received permission from OMB to use an alternative
                          methodology for three grant programs: Public Assistance,
                          Homeland Security, and Transit Security.4 Each program reported
                          estimated improper payments of less than $1 million and error
                          rates of less than one percent as a result of the limited testing
                          conducted under the alternative methodology. FEMA did not draft
                          mission action plans (MAPs) for Transit Security or Homeland
                          Security Grant Programs because neither reported more than $10
                          million in improper payments. MAPS are a management tool to
                          address and remedy identified internal control deficiencies such as
                          improper payments. Additionally, FEMA intends to ask for a

4
  The scope of the assessment for the Public Assistance Grant Program was limited to targeted transactions
from FEMA Regions I, II, III, and X. Testing for the Homeland Security Grant Program was based on a
targeted sample of the largest payments disbursed in 17 states. Testing for the Transit Security Grant
Program was based on a targeted sample of payments in 9 states.


Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                  Page 8
                         waiver from further testing of the Transit Security Grant Program
                         because of its low error rate.

                         DHS’ guidance does not address how to treat results of testing that
                         deviate from OMB methodology. Without this guidance, programs
                         that should be tested may not be tested and MAPS, with monitored
                         corrective actions, may not be developed.

                Recommendations
                         We recommend that the Deputy Chief Financial Officer,
                         Department of Homeland Security:

                         Recommendation #1: To ensure that all payments for programs
                         and activities identified as high risk are subject to selection for
                         testing and reported, the Department must:
                                 Enhance controls and processes used by Components to
                                 reconcile their lists of fiscal year payments with their
                                 financial accounting system; and
                                 Enhance controls and processes used by the Department of
                                 Homeland Security to review Components’ lists of fiscal
                                 year payments to ensure that they are complete and that
                                 variances are investigated, accounted for, and substantiated.

                         Recommendation #2: Include the following corrections in the
                         Department of Homeland Security’s FY 2012 Annual Financial
                         Report:
                                FY 2011 recovery audit reporting for Federal Protective
                                Services under National Protection & Programs
                                Directorate; and
                                Excluded payments from U.S. Customs and Border
                                Protection’s Secure Border Fencing program from the FY
                                2011 Annual Financial Report.

                         Recommendation #3: Develop and implement procedures to
                         ensure that duties to determine the level of improper payments and
                         to reduce improper payments are adequately segregated.

                         Recommendation #4: Modify the Department of Homeland
                         Security’s Improper Payment Reduction Guidebook to provide
                         guidance to Components on how to treat results of testing using
                         alternative methodologies. When seeking approval from the
                         Office of Management and Budget for an alternate sampling
                         methodology, DHS shall propose dollar thresholds that will be



Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 9
                         applicable to the results of testing using approved alternate
                         sampling methodology.

        DHS’ Efforts to Recover Improper Payments
                DHS needs to improve its improper payment recovery efforts. Not all
                Components conducted payment recovery audits as required by IPERA.
                Of those Components that did conduct recovery audits, only the USCG
                prioritized its audit to target categories with higher potential for
                overpayments and recoveries. If these issues are corrected, DHS would
                benefit by recovering a greater number of improper payments.

                         Performing Recovery Audits

                         DHS decided not to perform recovery audits for the Domestic
                         Nuclear Detection Office (DNDO) and TSA. By not performing
                         the required recovery audits, DHS potentially missed an
                         opportunity to recover improper payments. USCG provides
                         financial services for DNDO and TSA, and a USCG general
                         recovery audit contract would include payments made by these
                         Components. In FY 2011, DHS and USCG decided that a targeted
                         recovery audit of USCG telecommunication invoices would be of
                         greater benefit to the government than a general recovery audit of
                         all USCG-processed payments. In its FY 2011 AFR, DHS
                         reported that in FY 2012 it plans to conduct a general recovery
                         audit for DNDO and TSA covering FY 2010 and FY 2011 contract
                         payments. The U.S. Secret Service (USSS) did not conduct a
                         recovery audit because it did not enter into a recovery audit
                         contract in time to perform an audit in FY 2011. Previously,
                         agencies had to conduct recovery audits for each program and
                         activity that expended at least $500 million. The USSS did not
                         have to conduct recovery audits under the $500 million threshold,
                         but its programs fell within IPERA’s lower $1 million threshold.
                         DHS plans to conduct a general recovery audit in FY 2012 for
                         USSS covering FY 2010 and FY 2011 contract payments.

                         A payment recovery audit is designed to identify overpayments by
                         reviewing accounting and financial records, supporting
                         documentation, and other information. IPERA requires an “agency
                         to conduct recovery audits with respect to each program and
                         activity of the agency that expends $1 million or more annually if
                         conducting such audits would be cost-effective.” In FY 2010,
                         DNDO paid approximately $369 million, TSA paid approximately
                         $2.18 billion, and USSS paid approximately $393 million in
                         contract payments. Despite exceeding IPERA’s $1 million


Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 10
                         threshold, none of these Components conducted a payment
                         recovery audit in FY 2011.

                         Targeting High-Risk Payments for Recovery Audits

                         OMB requires agencies to prioritize payment recovery audits on
                         categories that have a higher potential for overpayments and
                         recoveries. For CBP, FEMA, ICE, Management, NPPD, Office of
                         Health Affairs, S&T, and U.S. Customs and Immigration Service,
                         the recovery auditors reviewed the entire population of contract
                         payments rather than focusing on categories that are higher risk or
                         have a higher potential for overpayment and recoveries. These
                         recovery audits, which reviewed more than $8 billion, identified
                         $73,000 in recoverable overpayments.

                         USCG’s recovery audit, which focused on telecommunication
                         invoices, was the exception. USCG targeted telecommunications
                         invoices because of the carriers’ complex pricing and billing
                         practices. The recovery audit examined $78 million in payments
                         and identified errors totaling more than $4 million. Furthermore,
                         DHS reported an immediate cost savings of $102,355 and
                         estimated future cost savings in excess of $2 million. By using a
                         targeted approach, USCG’s recovery audit identified more errors
                         than those of other Components despite reviewing fewer payments.
                         Although ICE, CBP, and FEMA conducted general recovery
                         audits, there is no evidence to indicate that these Components
                         targeted certain payment types. While general recovery audits are
                         important, targeted, in-depth recovery audits could potentially
                         identify and recover substantially more improper payments.

                         OMB places responsibility for prioritizing recovery audits on the
                         agencies. DHS’ Payment Recapture Audit Plan assigns this
                         responsibility to the recovery auditors. Components are to provide
                         100 percent of their contract payments to recovery audit
                         contractors. The recovery audit contractors then use proprietary
                         software to identify and focus on categories at higher risk of
                         improper payments and on identifying whether certain types of
                         improper payments have occurred, such as duplicate payments.
                         The focus of the recovery audit is set by the proprietary software as
                         opposed to a targeting of high-risk payments prioritization by
                         DHS.




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 11
                Recommendations
                         We recommend that the Deputy Chief Financial Officer,
                         Department of Homeland Security, ensure that:

                         Recommendation #5:
                            Domestic Nuclear Detection Office, the Transportation
                            Security Administration, and U.S. Secret Service conduct
                            recovery audits as planned and reported in the Department’s
                            FY 2011 Annual Financial Report; and
                            Components follow the requirements of the Improper
                            Payments Elimination and Recovery Act of 2010 to perform
                            recovery audits annually if conducting such recovery audits is
                            cost-effective.

                         Recommendation #6:
                            Components target those improper payment categories that
                            have a higher potential for overpayment and recoveries for
                            recovery audits, when cost-effective; and
                            Modify the Department of Homeland Security’s Payment
                            Recapture Audit Plan to follow OMB guidance for prioritizing
                            recovery audits.

                Management Comments and OIG Analysis
                         DHS concurred with all six of our recommendations. DHS
                         provided a description of actions already taken and planned actions
                         to be completed before or by November 2012. Based on the
                         information provided by DHS on February 27, 2012,
                         recommendation #1 is closed. Recommendations 2 through 6 are
                         resolved and will remain open until we verify that DHS has
                         implemented these recommendations. We included a copy of the
                         management comments in their entirety in appendix B.

                         Management Response to Recommendation #1

                         DHS concurs with this recommendation. DHS reports that it has
                         taken action to address this recommendation. Specifically, ICRM
                         staff included additional controls to the template that will be
                         submitted by Components to identify and reconcile program
                         payment populations to Treasury disbursement totals. By having
                         Components complete quality assurance questions that were
                         previously performed by ICRM staff, problems will be identified
                         earlier thus allowing more time to promptly and properly resolve

Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 12
                         them. ICRM personnel are now required to review transactions
                         identified as non-payment on the Components’ disbursement
                         general ledger.

                         OIG Analysis: On February 27, 2012, DHS provided its updated
                         DHS Improper Payment Reduction Guidebook, version 2.0, which
                         includes the updated program identification template with program
                         identification checklist that Components are required to complete.

                         The updated guidance also requires Components to provide
                         payment detail files for all payments listed on the program
                         identification template, and payment detail files for any non­
                         payment entries. The previous guidance required the payment
                         detail files for payments only. During our audit, we noted that
                         some payments were excluded from the list of CBP Security
                         Border Fencing program payments because they appeared to be
                         journal entries. This new requirement should provide DHS with
                         support for all payments or entries to ensure a complete list of
                         program payments.

                         We consider DHS’ actions responsive. Based on our review of
                         documentation provided by DHS in support of the described
                         actions this recommendation is closed.

                         Management Response to Recommendation #2

                         DHS concurs with this recommendation.

                         OIG Analysis: This recommendation is resolved and will remain
                         open until we are able to verify the corrections in DHS’ FY 2012
                         Annual Financial Report, which is required to be published by
                         November 2012.

                         Management Response to Recommendation #3

                         DHS concurs with this recommendation. DHS plans to 1) update
                         its Improper Payments Reduction Guidebook; 2) provide training
                         to ensure that improper payment reviewers are not directly
                         involved in processing any payments they are asked to review; and
                         3) assign payment review to individuals who do not have a
                         performance measure goal to reduce improper payments.

                         OIG Analysis: With respect to DHS’ plan to assign payment
                         review to individuals who do not have a performance measure goal
                         to reduce improper payments, we offer some clarification. The


Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 13
                         task of reviewing payment files for improper payments must not be
                         conducted by personnel responsible for reducing improper
                         payments for that same program. Simply, personnel should not
                         test their own work. Furthermore, personnel conducting the
                         review of payments should not report to someone who is
                         responsible for keeping improper payment rates low.

                         This recommendation has been addressed partially by the
                         additional instruction to Components in DHS’ Improper Payment
                         Reduction Guidebook, version 2.0. The Guidebook provides that
                         personnel reviewing payment files for IPERA purposes must not
                         review payments files for payments they are directly involved in
                         processing. This recommendation is resolved and will remain
                         open until DHS completes the remaining actions described.

                         Management Response to Recommendation #4

                         DHS concurs with this recommendation. ICRM staff will update
                         the DHS Improper Payments Reduction Guidebook to explicitly
                         state that the Department’s practice of applying the $10 million
                         estimated error reporting threshold shall apply to programs using
                         the standard methodology. When seeking approval from the
                         Office of Management and Budget for an alternate sampling
                         methodology, DHS will include dollar thresholds applicable to the
                         results.

                         OIG Analysis: DHS and FEMA are currently using a multi-year
                         alternate sampling methodology plan, approved by OMB, for
                         which the Department does not need annual approval. The revised
                         guidance should apply to new DHS requests for approval to use
                         alternate methodologies. This recommendation is resolved and
                         will remain open until implemented.

                         Management Response to Recommendation #5

                         DHS concurs with this recommendation. DHS plans to ensure that
                         DNDO and TSA recovery audit work will be conducted by the
                         Comptroller of the USCG during FY 2012, as planned and
                         reported in DHS’ FY 2011 Annual Financial Report. The USSS’
                         Chief Financial Officer will also complete recovery audit work in
                         FY 2012.

                         OIG Analysis: This recommendation is resolved and will remain
                         open until DHS provides documentation supporting that recovery
                         audits were completed in FY 2012 for DNDO, TSA, and USSS.


Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 14
                         Management Response to Recommendation #6

                         DHS concurs with this recommendation. DHS plans to revise its
                         Improper Payments Reduction Guidebook and related training.
                         The revised version will emphasize the need for Component
                         contracting officer representatives to provide recovery audit
                         contractors with direction and explanation on targeting the highest
                         known or suspected payment risks.

                         OIG Analysis: This recommendation is resolved and will remain
                         open until DHS completes this work and provides documentation
                         in support of the actions taken.




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 15
Appendix A
Purpose, Scope, and Methodology

                         The audit objectives were to 1) determine the Department of
                         Homeland Security’s compliance with the Improper Payments
                         Elimination and Recovery Act of 2010; 2) evaluate the accuracy
                         and completeness of DHS’ improper payment reporting; and 3)
                         evaluate DHS’ performance in reducing and recapturing improper
                         payments.

                         The scope of the audit is DHS’ FY 2011 efforts to comply with
                         IPERA. We limited our scope to certain DHS Components. Using
                         DHS’ Annual Financial Reports from FY 2008 through 2010, we
                         judgmentally selected Components to review because they
                         reported programs as high risk for improper payments. The
                         Components we selected are U.S. Coast Guard, U.S. Customs and
                         Border Protection, Federal Emergency Management Agency, U.S.
                         Immigration and Customs Enforcement, and Transportation
                         Security Administration. Additionally, we included National
                         Protection and Programs Directorate and Science and Technology
                         Directorate because DHS listed them in FY 2011 High Dollar
                         Overpayment reports.

                         To understand DHS’ requirements under IPERA and DHS’
                         policies and procedures to meet those requirements, we obtained
                         and reviewed relevant authorities and guidance including IPERA,
                         OMB’s memorandum on implementing IPERA, and DHS’
                         Improper Payment Reduction Guidebook. We also interviewed
                         officials in DHS’ Office of Chief Financial Officer and the various
                         Components directly involved with IPERA implementation.

                         We contracted with independent auditor KPMG to determine DHS
                         compliance with IPERA. The contract required that KPMG
                         perform its audit in accordance with generally accepted
                         government auditing standards. Those standards require that the
                         auditors plan and perform the audit to obtain sufficient, appropriate
                         evidence to provide a reasonable basis for their findings and
                         conclusions based upon the audit objectives.
                         At each Component, KPMG performed the following:
                                Obtained and read relevant authorities and guidance;
                                Interviewed Component management and reviewed
                                Component policies;
                                Reviewed Components’ risk assessment processes;
                                Reviewed Components’ sampling plans and
                                methodologies; and
                                Reviewed Components’ corrective action plans.




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 16
Appendix A
Purpose, Scope, and Methodology

                         At DHS, KPMG reviewed DHS’ FY 2011 AFR to determine
                         compliance with reporting requirements.

                         To evaluate the accuracy and completeness of DHS’ improper
                         payment reporting, we performed the following procedures:
                                Reviewed Components’ risk assessments;
                                Reconciled Components’ risk assessments with FY 2010
                                gross disbursement data;
                                Reviewed sample test plans and results; and
                                Reviewed DHS’ internal controls over the processes and
                                procedures used to estimate the improper payment rate,
                                including the risk assessment process, testing, and
                                reporting.

                         We did not conduct any sample payment testing to validate DHS’
                         estimated improper payment rates reported in the FY 2011 AFR.

                         To evaluate DHS’ performance in reducing and recapturing
                         improper payments, we performed the following procedures:
                                Reviewed DHS’ FY 2011 AFR for improper payment
                                reduction and recovery data;
                                Reviewed DHS’ corrective action plans; and
                                Reviewed recovery auditors’ reports.

                         We conducted this performance audit between September 2011
                         and January 2012 pursuant to the Inspector General Act of 1978, as
                         amended, and according to generally accepted government
                         auditing standards. Those standards require that we plan and
                         perform the audit to obtain sufficient, appropriate evidence to
                         provide a reasonable basis for our findings and conclusions based
                         upon our audit objectives. We believe that the evidence obtained
                         provides a reasonable basis for our findings and conclusions based
                         upon our audit objectives.




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 17
Appendix B
Management Comments to the Draft Report




                                                                                       U.$. ".,...._ 1
                                                                                       W ..........
                                                                                                        orN_"" s..•...,
                                                                                                      oc,..,•

                                                                         •a            Homeland
                                                                         9             Security
                                             FEB 23     m


             MEMORANDUM FOR:               Anne L. Richards
                                           AssiSlallt lnsP.tct<>r Oeneral for Audits

             FROM:
                                          f~nanci'l                 Office,

             SUBJECf:                      Depanmcnt of Homeland ~urity's ComplillllCC with the:
                                           Improper Payments Elimirwion and Rec:overy Act of2010
                                           (Proj~t No. ll-G44-AUD-MGMD


             Thank you for the opportUflity to review and comment on this dmft report. We appreciate tM
             Office of Inspector General's (010) work ronducting its SIlltuIQrily-requin:d annual revicw of
             the U.S. Department ofUomeland ~urity's (DHS}compliance with the Improper Payments
             Elimination and Recovery Act of2010 (lPERA) and issuinlllhis report.

             We ore pleased to note that KPMG LLP. tlte Department's indepc:ndent financial Slal~nts
             auditor, did not fInd iIfIy inslan<:cs of noncompliance wilh the Aee. We also welcome the DIG'.
             positive recognition ofactions taken by the U.S. COIISI GWlJd that focusm on wg",ing high_risk
             telecommuniClltions payments for recovery audits and which ","ulted in immediate cos! savings
             of$I02,355 IIIId estimated fmure cost savings ofmon: than $2 million. We consider this W\Irl; a
             government-wide best practice.and"", expanding it to other Components in FY 2012.

             We have achieved many additional successes n:lated to the Depanmc:nt's improper payments
             work. For example, the Federal Emergency Management Agency (FEMA) has cw>sistently
             lower..:lthe estimated error rate for its high-risk programs. The overall error nlte for I'EMA's
             high-risk programs dropped from 8.0% rq:K>rted in FY 2009 to l,1% in FY 21)[0 to 1.0% in FY
             2011. This imptOV<:ll1ent was drh'en by the "",ff of the FEMA Office of the Chief Financial
             Officer who led mission aclion plilfl completion and formed successful partnerships with FEMA
             granl progrwn manage". Improvements include adding applicilflt eligibility edit chceks,
             standardizing documcn~tion requirements. and providing training on the root causes of errors
             and s!CpS to address paymCllt risks. Additionally, the SIllff of the DHS Office oflbe Chief
             Financial Officc:r (OCFO) fully atga~ed with staff from the DHS Offi~e of the Chief
             Procurement Offi~er and leveraged lbeirexpc1IiK wbert evaluating conlnlCt paymCllts. This
             cooperation improves our reponinS and assists Ibe development of mission action plans by
             crL'Iuring thatlhe fOOl ca\l1eS behind improper payment risk and contract management "'T1OOless
             an: addr=ed.




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010 


                                                         Page 18

Appendix B
Management Comments to the Draft Report




             Your rep:>M <:onlained ~;x recommcndaliom, with which t~ Department ooncurs. Specifically,
             you recommended the followingactionslO!he Depwy Chief Financial Officer:

             Rf:<'(Immenda'ion jj(: To ensure \hal all paymenlll for programs and aeti~ities idenlified as high
             .uk are .ubjectto selection for tOling and rep:>Med,!he Department mult:

                    (1) Enhance <:onltOls and proeesseJ used by Components to reconcile their lim of fiscal
                    year payments with l~ir financial aco:ounting system; and

                    2) Enhance controls and processes used by the Depanment of Homeland Security to
                    review ComponenlS' lis15 offiscal year payments 10 ensure that they are complele and
                    that variances alll investigated, accounted for, and substantiated.

             ROpllnH: Concur. DHS bas luken action 10 address this recornrnendalion. Specitically,
             additienal controls were added by lntemal Control and Ri.k Management (lCRM) stafflo!he
             template which will be submitted by Comp:>nen15 to identify and rt:roflcile program payment
             p:>pulations to Treasury disburscmenttotals. Dy ha~ing Components complete quality lISSUnlnC<:
             qutllions which were pre~iously perfOTmed by ICRM .taff, problems will be identified earlier
             thus allowing more time 10 prompl1y and properly resolve them. Control. were also added 10
             require lCRM .,..ffto ",~iew lransactions identified by Componenlll as non-payment which
             updated disbursemctllll"neralledgcraccounlll. We reqllCstlhis recommendation be considered
             closed. (Completion Date: December 27, 2011)

             Recommcodation lIZ: Include: the: fottowingcorre<:tions in the: Department nfHomeland
             Security's FY 2012 Ann",,1 Financial R~port:

                    (I) FY WII reoovcry audit ",porting for Federal Protective Services under National
                    Protection &. Program. Dim:torate; and

                    (2) Excluded payments from U.S. Customs and Border Protection'. Secure Border
                    Fencing program from the: FY ZO II Annual A_clat Rep<Jrl.

             Response: Concur. These COITCClions will be clearly noled in the: FY 2012 Annual FiIWncial
             Rtport. We request this recommendation be considered rcsol~ed and open. pending final
             publication oftbc: FY 2012 report, (E~timated Completion Date: November IS, 2012)

             Recommendation 0: Develop and implemcnt procedures to ensure that duties to dettmlinc: the
             level of improper paymenlll and to reduce improper paymcn15 are adequately segregated.

             Ruponn: Concur. ICRM staffwill: (1) update the [",proper Payments Rtduction GliltUboook
             (Guidebook), (2) pro~ide training 10 ensure that improper payment reviewen lilt nol directly
             inV<)l~ed in proctS:iing any paymenllllhocy are asked 10 review and (3) lWigll payment ..vie"",, to
             individual. who do not have a performance measure goal 10 reduce improperpaymcnts. n.c
             updated Guidebook will more prominently emphas;:.:c that improper payment ttst documentation
             must be oompltlC and transparent. We request this rccolllmcndation to be considered resolvtd
             and open, pending updating of !he Guidebook. completion of related training, and independent


                                                              2




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010 


                                                         Page 19

Appendix B
Management Comments to the Draft Report




            ~~iewofComponcnt      sample 1es1 ~sullS by ICRM .lafT. (f.slimalcd Complclion Date:
            September 30, 2012)

            Recommendatiol! #4: Modiry lhe Dcpanmenl of Homeland Securily'S /"'fNOper Payments
            Rtd~l/on Guidebook 10 provide guidan~ 10} Components 00 howto tmll rcsullS oftesting using
            allernalivc mclbodologie•. When seckingappro~al from lhe Office ofManagcmcnl and Budgel
            ror an alternate !IIln\pling methodology, DHS shall propose dollar thrffiIolds!hal will be
            applicable to lhe resullS oftcsting under an appro~cd allernale sampling mcl!>c.>dology.

            R..pon5C: Concur. The Guidebook will be upd<lled by leRM stafflO cxplieitly Slale the
            Dcpanrncnl's prtlCliee of applying the ten million dollar ..limalcd etTOl reporting lhn:shold
            ""Iuirtd or programs not using allernali"" methodologies to alllllllional estimates in ClISCS "'ttrc
            fUI alternate sampii"i mcthOOology i. employed. When seeking aPl'l'Oval from the Office of
            Managemenl and Budget for fUI allemale sarnpli"i methodology, DHS will include dollar
            thresholds applicable to the results. Pie...., "",Ie that the approval recei~cd from the Office of
            Managemcnt and Budget for FEMA's usc ofan ahemale sampling methodology, eSlablished a
            mulli-year teSling and reponi"i methodology which does no! ""Iuirc annual approval. We
            requeSl this recommendalion 10 be considered resolved and open, pending lCRM's updali"i of
            tile Guiokbook. (E'.sllmaled Completion Dale: February 29, 2012)

            Rec<lmmondaliol! #5: Ensure lhat the Domestic Nuclear Deleclion Office, the Tnmsponalion
            Security Adminislration, and U.S. Sccrel Service condlll:t recovery audils a.'5 planned and
            reponed in the Department'. FY 20 I ! Annual Finan<:ial Repon; and Components follow lhe
            ""IuiremenlS of the Improper I'aymems Eliminalion and Recovery Actof2010 10 pcrfonn
            recovery audilll annually if condueting such recovery audilS is cosl-effccli,·c.

            RtsponlC: Concur. PlaMcd Dome.lic N...lclll Deleclion Office and Transponation Security
            Administration recovery audil work will be completed by !he Complrollerof!he U.S. Coasl
            Guard during fY 2012. The U.S. Secrel Servicc's ChiefFinaneial Officer will also complete
            rttOvery audil work during the lllIme lime period. We request this rcoommcndation 10 be
            considered resolved and open, pending completion orlhi. work. (Eslimaled Completion Dale:
            September 30, 20 12)

            Rec<lmmmdalion 116: Ensure lhal Components Largellho5c impropcrpayrncnt eatcgorics thaI
            have a higher polenlia! for overpaymenl and TCWveries for rttO~ery audits, "''hen cost-effecti~c
            and modify the Department of Homeland Security's Paymenl Rccapture Audit Plan to follow
            OMB guidance for prioritizi"i rttOvcry audilS,

            Kapllns.: Concur. 1be Departmenl is strongly commincd 10 maximizing !he effccliveness and
            efficiency ofcveT)' taxpayer dollar we rt<:eive. ICRM staffwill review llle Guidebook and
            relaled trnining to ensu..., il emphasizes the DCCd for Componml contracting officer
            ~ntativcs to provide rttOVeJY audit contractorn with direction and explluwion on largeling
            the hig/lcsl known or SUSpecled payment risks <as required by OMB guidance). For e~ample. as
            a result ori~a3cd emphllSis in this area. DHS is planning to expand lllrgerod recovcry audil
            work on telecommunications paymcnlS. We rcqueSi this rco;ommcndation to be considered




                                                             3




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010 


                                                          Page 20

Appendix B
Management Comments to the Draft Report




             resolved and open, pending completion of this worl<. (Estimated Compktion Date: September
             30,2012)

             Again, thank you for the opportunity to review and comment on this draA report. In panicular, I
             "I'I'=iale (he high level of communication exhibited bet....-een your aoo;l learn and my staff
             during lhe audit. By necessily, the lime available 10 complete this aodil was relatively shoTl, yet
             ~ur leam provided highly beneficial feedback throughout lhe entire engagement. As a result,
             we ha,-c already taken concrete slCp5 to addms most of the findings and have a clear path 10
             acbieve full resolulion oflhe remaining findings. We look forward 10 working with ~u on
             future Homeland Sc<:urily issues.




                                                              •



Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010 


                                                          Page 21

Appendix C
Major Contributors to this Report


                         Sandra John, Director
                         Donald L. Bumgardner, Director
                         Andrea Rambow, Audit Manager
                         Eric Young, Audit Manager
                         Sandra Ward-Greer, Auditor
                         Polin Cohanne, Senior Analyst
                         Robert Edwards, Auditor
                         Victor Leung, Program Analyst
                         LaTrina McCowin, Auditor
                         Jeff Mun, Auditor
                         Meredith Needham, Program Analyst
                         David Porter, Auditor
                         Roger Thoet, Auditor
                         Kevin Dolloson, Communications Analyst
                         Frank Parrott, Independent Referencer




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 22
Appendix D
Report Distribution


                         Department of Homeland Security

                         Secretary
                         Deputy Secretary
                         Chief of Staff
                         Deputy Chief of Staff
                         General Counsel
                         Executive Secretariat
                         Director, GAO/OIG Liaison Office
                         Assistant Secretary for Office of Policy
                         Assistant Secretary for Office of Public Affairs
                         Assistant Secretary for Office of Legislative Affairs

                         GAO

                         The Comptroller General

                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         The Committee on Homeland Security and Governmental Affairs
                         of the Senate
                         The Committee on Oversight and Governmental Reform of the
                         House of Representatives




Department of Homeland Security’s Compliance with Improper Payments Elimination and Recovery Act of 2010

                                                Page 23
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
